HHS/OIG-Audit--"Review of the Puerto Rico's Treasury Department Escheated Warrants for the Period July 1, 1986 Through June 30, 1993, (A-02-94-02000)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Puerto Rico's Treasury Department Escheated Warrants for the Period
July 1, 1986 Through June 30, 1993," (A-02-94-02000)
August 29, 1994
Complete
Text of Report is available in PDF format (2.55 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that after repeated audit recommendations, follow-ups, and meetings with Puerto Rico
officials, Puerto Rico has yet to implement adequate procedures whereby Federal programs receive appropriate, timely credit
for the Federal share of uncashed canceled checks. During this review, we found that Federal programs have not received
credit for their share of such checks which exceeded $55.2 million. Because records were missing or could not be located,
we were unable to determine the exact amount due Federal programs, but it is significant. Accordingly, we recommended that
Puerto Rico implement, in cooperation with the Department of Health and Human Services' Division of Audit Resolution, an
alternate estimation procedure to determine the Federal portion and return that amount to the Federal Government. We also
made recommendations designed to improve future performance.